Jean Coulter, Petitioner
v.
Jean Coulter, Petitioner v. Philip A. Ignelzi, et al., Respondents
On Petition for Certiorari to the Supreme Court of Pennsylvania
WORD COUNT
I hereby certify that the word count for the accompanying MOTION FOR
RECONSIDERATION, according to the count provided by the word processing
program is

2961

words.

1

CERTIFICATE OF SERVICE
I hereby certify that on April 21. 2021.1 served Defendants Counsel by email
only (by prior agreement of Counsel), one true and correct of the accompanying
MOTION FOR RECONSIDERATION in the case Jean Coulter v. Philip Ignelzi, et.
al., sent to the addresses for Counsel shown below:
caroline.liebenguth@pacourts.us - Respondents Ignelzi, O’Reilly, Wecht and Folino
,jswistak@c-wlaw.com - Respondents Lenziand Cipriani & Werner
lee.dellecker@alleghenycounty.us - Responde

agnhto only

i
Jeafn Coulter, Petitioner
620 Butler Crossing #3
PMB 172
Butler, Pennsylvania 16001
412-616-9505
jeanecoulter@yahoo.com

